   October 12, 2006




Acquisition
Army Acquisition Executive’s
Management Oversight and
Procurement Authority for
Acquisition Category I and II
Programs
(D-2007-005)




            Department of Defense
           Office of Inspector General
Quality               Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AAA                   Army Audit Agency
ACAT                  Acquisition Category
ACTF                  Army Constructive Training Federation
AFATDS                Advanced Field Artillery Tactical Data System
CCTT                  Close Combat Tactical Trainer
ERMP UAV              Extended Range Multi-Purpose Unmanned Aerial Vehicle
FAADC2I               Forward Area Air Defense Command, Control, and Intelligence
FMTV                  Family of Medium Tactical Vehicles
GAO                   Government Accountability Office
IG                    Inspector General
JVAP                  Joint Vaccine Acquisition Program
MCS                   Maneuver Control System
MRM                   Mid Range Munition
PAC-3                 Patriot Advanced Capability-3
PEO                   Program Executive Office
SLAMRAAM              Surface-Launched Advanced Medium Range Air-to-Air Missile
SMART-T               Secure Mobile Anti-Jam Reliable Tactical Terminal
               Department of Defense Office of Inspector General
Report No. D-2007-005                                                     October 12, 2006
   (Project No. D2005-D000AE-0224.000)

        Army Acquisition Executive’s Management Oversight and
        Procurement Authority for Acquisition Category I and II
                              Programs

                                 Executive Summary

Who Should Read This Report and Why? Civil service and military personnel
involved in the management oversight and procurement of Army acquisition programs
should read this report. This report discusses issues in the area of program
documentation that the Army must address to improve how acquisition officials manage
and acquire weapon systems. It also discusses program oversight during the
production phase.
Background. This report is the first in a series of audit reports that will discuss the
Service Acquisition Executive’s management oversight and procurement authority for
Acquisition Category IC and II programs. This report discusses the management
oversight and procurement authority provided within the Army. Two other reports will
discuss the management oversight and procurement authority provided within the Navy
and Air Force. We initiated this audit because of congressional and DoD interest in
whether Service milestone decision authorities and procurement officials were complying
with statutory and regulatory requirements for acquisitions.

The Army relies on its acquisition executives (the Army Acquisition Executive for
Acquisition Category IC programs and Program Executive Officers in most cases for
Acquisition Category II programs) to be program milestone decision authorities.
Milestone decision authorities oversee the development and procurement of systems to
meet Army mission requirements. From FY 2006 through FY 2011, the Army
acquisition officials will oversee $2 billion in research, development, test, and evaluation
funding and $37 billion in procurement funding.

To evaluate the adequacy of Army milestone decision authority management oversight
and procurement authority, we selected for review 21 Acquisition Category IC and II
programs with development and production costs totaling $39 billion.

Results. For the most part, the Army had effectively implemented management controls
in the DoD 5000 series of guidance. We did not find management control problems like
those identified in our previous reviews of the Boeing KC-767A tanker aircraft and the
C-130J aircraft. Specifically, we found no evidence that Army milestone decision
authorities used their positions to inappropriately influence the results of contractor
selection and negotiations. Army milestone decision authorities fulfilled their
management oversight responsibilities, except for the following instances.

   •   Since FY 2000, program managers for 10 of the 21 programs had not prepared,
       updated, or obtained all required documentation before they scheduled milestone
       reviews with milestone decision authorities for entry into the system development
       and demonstration or production and deployment phase of the acquisition process.
       As a result, milestone decision authorities did not have information needed to
       make fully informed milestone decisions. Accelerating the development and
       establishing milestones for the new system (Future Business System) that will
       allow milestone decision authorities to oversee the status of the completion of
       program office documentation and milestone decision authorities holding
       program managers accountable for submitting required documentation at
       milestone decision reviews should help officials make informed milestone
       decisions (finding A). (This is a repeat finding that was discussed in DoD
       Inspector General Report No. D-2004-047, “Implementation of the DoD
       Management Control Program for Army Acquisition Category II and III
       Programs,” January 23, 2004.)

   •   After the full-rate production decisions, Army milestone decision authorities for
       6 of the 14 programs in production did not verify that program managers timely
       completed actions to resolve critical system operational and developmental
       deficiencies outstanding at the full-rate production decision. As a result, the
       milestone decision authorities allowed full-rate production to continue without
       assurance that program managers timely corrected the deficiencies in systems
       fielded to the warfighter. Requiring program managers to report their status
       toward resolving critical operational and developmental test issues outstanding at
       the full-rate production decision in quarterly SmartCharts submitted to milestone
       decision authorities should help the authorities exercise their management
       oversight responsibilities (finding B).

Management Comments. A draft of this report was issued on July 26, 2006. The
Assistant Secretary of the Army (Acquisition, Logistics, and Technology) did not provide
comments on the draft report. Therefore, we request that he comment on this final report
by November 13, 2006.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   2

Review of Internal Controls                                                  3

Findings
     A. Preparing and Updating Program Documentation                         5
     B. Overseeing Acquisition Programs in the Production Phase             11

Appendixes
     A. Scope and Methodology                                               15
         Prior Coverage                                                     17
     B. Glossary                                                            19
     C. Description of the 21 Army Weapon Systems                           24
     D. Comparison With Conditions Identified on Audits of Boeing KC-767A
          and C-130J Aircraft                                               29
     E. Other Matters of Interest                                           37
     F. Overview of the 21 Army Acquisition Programs                        41
     G. Report Distribution                                                 43
Background
    This report is the first in a series of audit reports that will discuss the Service
    Acquisition Executive’s management oversight and procurement authority for
    Acquisition Category (ACAT) IC and II programs. This report discusses the
    management oversight and procurement authority provided within the Army. Two
    other reports will discuss the management oversight and procurement authority
    provided within the Navy and Air Force. We initiated this audit because of
    congressional and DoD interest in whether Service milestone decision authorities
    and procurement officials were complying with the statutory and regulatory
    requirements in the acquisition process.

    The Army relies on its acquisition executives (the Army Acquisition Executive for
    ACAT IC programs and Program Executive Officers in most cases for ACAT II
    programs) to be program milestone decision authorities. Milestone decision
    authorities oversee the development and procurement of systems to meet Army
    mission requirements. From FY 2006 through FY 2011, the Army acquisition
    officials will oversee $2 billion in research, development, test, and evaluation
    funding and $37 billion in procurement funding. Appendix B is a glossary of
    technical terms used in this report.

    DoD Directive 5000.1, “Defense Acquisition System,” May 12, 2003, states that
    acquisition programs are directed, funded efforts providing new and improved
    weapons in response to an approved need. The Directive also states that the Under
    Secretary of Defense for Acquisition, Technology, and Logistics is responsible for
    supervising the entire Defense Acquisition System. Within the Defense
    Acquisition System, the milestone decision authority is the designated individual
    with overall responsibility for a program, including approval of entry and
    continuation of programs in the acquisition process.

    DoD Instruction 5000.2, “Operations of the Defense Acquisition System,”
    May 12, 2003, defines acquisition programs by category. ACAT I programs are
    major Defense acquisition programs with an estimated total expense for research,
    development, test, and evaluation of more than $365 million in FY 2000 constant
    dollars or, for procurement, of more than $2.19 billion in FY 2000 constant
    dollars. The Under Secretary of Defense for Acquisition, Technology, and
    Logistics is the milestone decision authority for ACAT I programs, but usually
    delegates those responsibilities to the Service acquisition executives when
    programs are approved for low-rate initial production. Those major Defense
    acquisition programs delegated to Service acquisition executives for milestone
    decision authority responsibility are designated ACAT IC programs. ACAT II
    programs are major systems with an estimated total expense for research,
    development, test, and evaluation of less than $365 million but more than
    $140 million, or for procurement, of less than $2.19 billion but more than
    $660 million in FY 2000 constant dollars.

    Army Regulation 70-1, “Army Acquisition Policy,” December 31, 2003,
    designates the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology) as the Army Acquisition Executive and principal milestone decision
    authority to oversee the acquisition process within the Army. The Army
    Acquisition Executive is responsible for acquisition matters within the Army and
    for approving requests to initiate new acquisition programs that are supported by


                                         1
           approved capability documents, requisite funding, and required program
           documentation. The Army Acquisition Executive is the milestone decision
           authority for Army ACAT II programs, but has authority to delegate that authority
           to Army Program Executive Officers. Within the Army, 11 Program Executive
           Officers oversee 25 ACAT II programs.

           To evaluate the adequacy of Army milestone decision authority management
           oversight, we reviewed 21 ACAT IC and II programs with an estimated
           development and procurement cost of $39 billion. Of the 21 programs, the Army
           Acquisition Executive was the milestone decision authority for 7 ACAT IC
           programs and 1 ACAT II program. The remaining 13 programs were ACAT II
           programs for which the Army Acquisition Executive had delegated milestone
           decision authority to 7 Program Executive Officers. The remaining four Program
           Executive Officers were not included in the review because they were not
           assigned milestone decision authority for ACAT II weapon system programs. The
           process we used to select the 21 acquisition programs is identified in Appendix A.

           Of the programs we reviewed, 14 were in the production phase, 6 were in the
           system development and demonstration phase, and 1 was in the preacquisition
           phase of the acquisition process. In addition, 13 of the 21 programs were listed on
           the Director, Operational Test and Evaluation “Oversight List.” 1 See Appendix C
           for a description of the 21 Army weapon systems, including identification of
           acquisition phase and acquisition category.

           The Deputy Assistant Secretary of the Army for Policy and Procurement oversees
           the head of the contracting activities who appoints and supervises contracting
           officers. Contracting officers are the buying agents for the program managers, and
           are responsible for entering, administering, terminating, and making
           determinations and findings for contracting actions. The Federal Acquisition
           Regulation prohibits contracting officers from entering into contracts unless the
           contracts meet all requirements of law, executive orders, regulations, and all other
           applicable procedures, including clearances and approvals.


Objectives
           The overall audit objective was to evaluate whether the Army Acquisition
           Executives’ management oversight and procurement authority for ACAT IC and II
           programs were adequate. Specifically, we evaluated the adequacy of program
           management and procurement decision processes used by the Army Acquisition
           Executive and the Program Executive Officers in their roles as milestone decision
           authorities and the contracting officers in their roles as procurement authorities.
           We also reviewed the adequacy of the management control program as it related to
           the audit objective. See Appendix A for a discussion of the scope and
           methodology and prior coverage related to the audit objectives. See Appendix D
           for a discussion of conditions identified on audits of Boeing KC-767A and C-130J
           aircraft and whether the Army’s management controls precluded similar
           occurrences. See Appendix E for a discussion of other matters of interest

1
     The Director, Operational Test and Evaluation “Oversight List” is a listing of programs that the Director
    Operational Test and Evaluation identifies annually for additional developmental, operational, and
    live-fire test oversight.



                                                        2
     concerning Program Executive Officer Soldier and Army management layers. See
     Appendix F for an overview of the 21 Army acquisition programs.


Review of Internal Controls
     DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, requires DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of the controls.

     Scope of the Review. Under DoD policy, acquisition program managers must use
     program cost, schedule, and performance parameters as control objectives to
     implement the requirements of DoD Instruction 5010.40. Accordingly, we limited
     our review to management controls used by Army milestone decision authorities
     and procurement officials when overseeing program manager and contracting
     officer actions in managing, developing, and acquiring ACAT IC and II
     weapon systems.

     Adequacy of Management Controls. The Army Acquisition Executive, Program
     Executive Officer, and procurement authority management controls were
     generally adequate. However, we identified material management control
     weaknesses, as defined by DoD Instruction 5010.40, relating to preparing,
     updating, and obtaining program documentation; and exercising management
     oversight over acquisition programs in the production phase. Management
     controls contained in the DoD 5000 series of guidance and Army Regulation 70-1,
     “Army Acquisition Policy,” December 31, 2003, were adequate for program
     oversight; however, Army milestone decision authorities did not always
     implement those management controls.

     Specifically, Army milestone decision authorities did not always do the following:

         •   ensure that program managers submitted required program documentation
             before holding program milestone reviews for entry into the system
             development and demonstration or production and deployment phase of
             the acquisition process; or

         •   exercise milestone decision responsibilities after the full-rate production
             decision when the program required follow-on operational testing.

     Implementing Recommendations A.1., A.2., A.3., and B. will ensure adherence to
     required statutory and regulatory guidance.

     In DoD Inspector General (IG) Report No. D-2004-047, “Implementation of the
     DoD Management Control Program for Army Category II and III Programs,”
     January 23, 2004, we reported a deficiency concerning program managers
     providing incomplete program documentation at milestone decision reviews. The
     Army did not comment on the finding but stated that they were developing a new
     database called the Acquisition Information Enterprise System to provide a single
     location from which milestone decision authorities could obtain information on
     the status of program documentation. Finding A of our report is a repeat of the



                                           3
finding in that report. We will provide a copy of our report to the senior Army
official responsible for management controls in the Department of the Army.

Adequacy of Management’s Self-Evaluation. Army milestone decision
authorities were diligent in holding program reviews and evaluating program
documentation to make informed milestone decisions on acquisition programs.
Also, program managers gave the milestone decision authorities briefings on
acquisition program status for program oversight purposes. Further, contracting
officers independently awarded contracts using sound procurement practices based
on the Federal Acquisition Regulation. Though the Army’s management control
process was adequate, we did identify material management control weaknesses as
discussed previously. For the 21 acquisition programs reviewed, management
identified Program Executive Offices and project or program offices as assessable
units. However, none of those Offices identified a material management control
weakness related to the issues discussed in the section “Adequacy of Management
Controls.”




                                     4
            A. Preparing and Updating Program
               Documentation
            Since FY 2000, program managers for 10 of the 21 programs had not
            prepared, updated, or obtained all required documentation before they
            scheduled program reviews with milestone decision authorities for entry
            into the system development and demonstration or production and
            deployment phase of the acquisition process. Additionally, program
            managers did not provide milestone decision authorities with updated
            program documentation between milestone decision reviews when
            significant changes affected programs. These conditions were caused, in
            part, by the Army milestone decision authorities not adhering to DoD
            acquisition policy when accepting requests from program managers to hold
            milestone decision reviews. These conditions also occurred because the
            Army was still developing its new system, the Future Business System, in
            which program managers will be required to store program documentation
            needed for program milestone decision reviews. As a result, milestone
            decision authorities did not have information needed to make fully
            informed milestone decisions. (This is a repeat finding that was discussed
            in DoD IG Report No. D-2004-047, “Implementation of the DoD
            Management Control Program for Army Category II and III Programs,”
            January 23, 2004.)


Policy
     DoD Instruction 5000.2 and Army Regulation 70-1 establish program manager
     requirements for preparing, updating, and obtaining required program
     documentation.

     DoD. DoD Instruction 5000.2 identifies documents that program managers must
     provide at program milestone reviews. Key program documentation includes
     acquisition program baselines, information support plans, capabilities documents,
     and test and evaluation master plans. Program managers are not required to advise
     the milestone decision authority on their progress towards completing and
     obtaining those documents before program initiation, which is usually declared
     when a program enters the system development and demonstration phase.
     However, program managers are required to provide those key program
     documents for the milestone decision authority to review before program initiation
     and before subsequent milestone reviews are approved.

     Army. Army Regulation 70-1 identifies milestone documentation requirements as
     the key management control for acquisition programs and the milestone decision
     review process as the evaluation of that control.




                                         5
Submitting Required Program Documentation at Milestone
  Decision Reviews
    Since FY 2000, program managers for 10 of the 21 had not prepared, updated, or
    obtained all required documents before the programs scheduled milestone reviews
    with milestone decision authorities for approval to enter into the system
    development and demonstration or production and deployment phase of the
    acquisition process.

    For example, in October 2004, the Army Acquisition Executive reviewed and
    approved the Army Constructive Training Federation (ACTF) Program for entry
    into the system development and demonstration phase of the acquisition process
    without requiring the program manager to submit an analysis of alternatives, an
    information support plan, an acquisition strategy, and a validated requirements
    document. The milestone decision authority for another program, Excalibur, also
    did not require the program manager to present an analysis of alternatives.
    Documentation that was not available to milestone decision authorities on other
    programs included approved requirements documents, approved information
    support plans, and test and evaluation master plans.
    DoD acquisition policy requires an analysis of alternatives to assess the
    advantages and disadvantages of alternatives being considered to satisfy system
    capabilities, including the sensitivity of each alternative to possible changes in key
    assumptions or variables. Acquisition policy also requires an approved
    requirements document that contains validated system performance requirements
    to ensure that the program managers and their prime contractors design a system
    that will meet warfighter needs. DoD policy states that a test and evaluation
    master plan is needed to ensure that the test community has an understanding of
    the test requirements needed to validate the system performance parameters. DoD
    policy further states an information support plan is critical not only for system
    design, but also for test organizations to identify system integration issues that
    need to also be addressed during testing. The table on the following page shows
    the documentation available for milestone decision review since FY 2000 for the
    10 Army acquisition programs.


Updated Program Documentation From Program Managers
    Program managers did not provide milestone decision authorities with updated
    program documentation between milestone decision reviews when significant
    changes affected programs. This occurred because program managers believed
    that updating program documentation added no value to the process if milestone
    decision authorities are made aware of the changes through other means. For
    example, the Close Combat Tactical Trainer Program, which was approved for
    entry into the production phase, experienced significant cost and schedule
    deviations. However, the program manager did not report to the milestone
    decision authority in a program deviation report that the program baseline had
    been breached and that a revised acquisition program baseline was needed.
    Instead, the program manager verbally communicated the information concerning
    the cost and schedule breaches to the milestone decision authority. Program
    managers need to document significant changes in program cost, schedule, and


                                          6
          performance requirements so that all parties affected by the changes, including the
          intended user of the system and the test community, can plan and react
          accordingly. Updating formal program documentation is essential for ensuring
          that program managers evaluate the effect of the changes on all aspects of
          the program.

                      Documentation Available for Milestone Decision Reviews

                                        AoA        APB         AS        C4ISP/ISP          ORD/CDD   TEMP
 Development Programs
 ACTF                                   No         No          No             No              No      No
 Excalibur                              No         Yes         Yes            No              Yes     Yes
 Extended Range Multi-
  Purpose                               Yes        Yes         Yes            No              Yes     Yes
 Land Warrior                           Yes        Yes         Yes            No              Yes     Yes

 Production Programs
 Bradley                                Yes        Yes         Yes            No              Yes     Yes
 M829A3                                 No         Yes         Yes             -              Yes     Yes
 Maneuver Control System                No         No          No             No              Yes     Yes
 PAC-3                                  No         Yes         Yes            No              Yes     Yes
 Shadow                                 Yes        Yes         Yes            No              Yes     Yes
 SMART-T                                No         Yes         No             No              No      Yes


AoA              Analysis of Alternatives
APB              Acquisition Program Baseline
AS               Acquisition Strategy
CDD              Capabilities Development Document
C4ISP            Command, Control, Communication, Computers and Intelligence Support Plan
ISP              Information Support Plan
ORD              Operational Requirements Document
PAC-3            Patriot Advanced Capability-3
SMART-T          Secure Mobile Anti-Jam Reliable Tactical Terminal
TEMP             Test and Evaluation Master Plan




Adherence to Internal Controls for Program Documentation
          Problems with program documentation were caused, in part, by the Army
          milestone decision authorities not adhering to DoD acquisition policy internal
          controls when accepting requests from program managers to schedule milestone
          decision reviews. Also, the Army had not completed the development of a new
          database, the Future Business System. Program managers will be required to store
          in this database program documentation needed for milestone decision reviews.

          Scheduling Program Milestone Decision Reviews. In some instances, the Army
          milestone decision authorities allowed program managers to schedule milestone
          decision reviews without all of the required documentation because new
          acquisition programs were started to replace former programs. For those
          programs, the milestone decision authority allowed program managers to submit


                                                           7
the former program documentation that was approved and new draft
documentation. For example, the ACTF program manager stated that his program
resulted from the replacement of the Warfighter Simulation Program, which
intended to integrate the capabilities of six training programs. In this case, the
program manager provided the milestone decision authority with documentation
approved for the former Warfighter Program.

In other instances, milestone decision authorities allowed program managers to
present studies that were not conducted as part of approved plans for analyses of
alternatives. For example, the Excalibur program manager used the results from a
“Precision Munitions Mix Analysis” to conclude that the Excalibur was the best
alternative. However, the program manager did not have an approved analysis of
alternatives plan and analysis of alternatives as required by DoD
Instruction 5000.2.

Ongoing Management Action. In FY 2004, Army representatives stated that the
Service began developing a new database called the Acquisition Information
Enterprise System. The representatives stated that the system was to have the
following five capabilities:

   1. a virtual Army System Acquisition Review Council to standardize the
      process of preparing, coordinating, and staffing program documentation;

   2. an acquisition program baseline module to provide a centralized holding
      place for all unclassified acquisition program baselines;

   3. acquisition program portfolios to facilitate decision making by providing
      program information tailored to the user’s needs;

   4. Defense Contract Management Agency assessments to evaluate the overall
      health of the program; and

   5. a probability-of-success metric to indicate how well a program is
      delivering the required capability within approved cost and
      schedule parameters.

In January 2006, a representative from the Office of the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology) stated that the Acquisition
Information Enterprise System did not exist under that name. He stated that the
concept of the system was being implemented under a different approach that
included the Acquisition Information Management system, the Virtual InSight
tool, and the Future Business System. The representative also stated the following
about the approach.

   •   The Acquisition Information Management system includes a module for
       acquisition program baselines that is not yet available to all of the Army
       acquisition program managers.

   •   The Virtual InSight tool will implement a standardized milestone decision
       process, provide a standard template and a tool for scheduling and support.
       The software program is undergoing full release testing. The Assistant
       Secretary of the Army (Acquisition, Logistics, and Technology) required
       in a Virtual InSight policy memorandum that all acquisition program
       managers use the program tool for milestone decision reviews.

                                     8
       •   The Army plans to develop a Future Business System. The Future
           Business System will integrate the Acquisition Information Management
           system and Virtual InSight tool into an enterprise suite of software
           modules that will satisfy the five capabilities identified in FY 2004.

    As of July 2006, the Army had prepared a draft initial capabilities document to
    begin developing the Future Business System. The initial capabilities document
    stated that the goal of the system is to provide more efficient support of
    acquisition programs and to deliver enterprise systems appropriate to the business
    of acquisition. However, the document does not specifically state that the five
    capabilities identified in FY 2004 will be satisfied. Accordingly, the Army still
    needs to complete the system for milestone decision authorities to use. The
    system will help determine whether program managers are preparing, updating, or
    obtaining required program documentation and whether program managers are
    taking necessary actions to ensure that required program documentation will be
    available at program milestone reviews. Furthermore, the Army still needs to
    establish milestone dates for developing and implementing the Future Business
    System.


Conclusion
    Without having all of the required program documentation, Army milestone
    decision authorities may not be aware of the potential or actual cost, schedule, and
    performance problems at the time of and between program milestone decision
    reviews. In addition, because program managers were not periodically reporting
    their status toward completing or obtaining required program documentation after
    receiving milestone approval, milestone decision authorities did not have
    information needed to determine whether a program was progressing as agreed to
    by the program managers in the acquisition program baseline agreement.

    Because milestone decision authorities rely on key program documentation as an
    internal management control point for managing the program, the Army needs to
    continue its efforts to establish a tool such as the Future Business System to
    provide the milestone decision authorities with the status of program information.


Recommendations
    A. We recommend that the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology):

           1. Accelerate the development and establish milestones for implementing
    the Future Business System.

            2. List the five capabilities (a virtual Army System Acquisition Review
    Council, an acquisition program baseline module, an acquisition program
    portfolio, Defense Contract Management Agency assessments, and a probability-
    of-success metric) in the initial capabilities document for the Future Business
    System.



                                         9
        3. Reemphasize in a policy memorandum to Army milestone decision
authorities the responsibility to hold program managers accountable for submitting
approved program documentation before and between milestone reviews as
required by DoD Instruction 5000.2, “Operation of the Defense Acquisition
System,” May 12, 2003.

Management Comments. The Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) did not provide comments to the draft report.
Accordingly, we request that he provide comments in response to the final report.




                                    10
            B. Overseeing Acquisition Programs in
               the Production Phase
            Army milestone decision authorities for 6 of the 14 programs in production
            did not verify that program managers timely corrected critical system
            operational and developmental performance deficiencies outstanding at the
            full-rate production decision. Army milestone decision authorities did not
            exercise their management oversight responsibilities because they did not
            require program managers to report the status of their corrective actions in
            quarterly program status reports, called SmartCharts. As a result, the
            Army milestone decision authorities allowed full-rate production to
            continue without assurance that program managers had timely corrected
            critical developmental and operational performance deficiencies in systems
            fielded to the warfighter. Further, program managers will incur extensive
            retrofit costs to modify fielded systems if performance deficiencies are not
            corrected before the production and fielding of large quantities of units.


Engineering Change and Materiel Release Policy
     Army Regulation 70-1, “Army Acquisition Policy,” December 31, 2003, provides
     policy for acquisition program managers to follow when testing and fielding
     systems. Army Regulation 700-142, “Materiel Release, Fielding, and Transfer,”
     July 26, 2004, states that the milestone decision authority is responsible for
     overseeing the program managers to ensure that the total system is tested in its
     fielded configuration and that the evaluation process is complete. The Regulation
     addresses milestone decision authority responsibilities for managing the materiel
     release of systems. Regulation 700-142 states that the materiel release process is
     intended to ensure that Army materiel is safe, operationally suitable, and
     supportable before release to users. It also states that program managers will
     ensure that all critical and major test incidents disclosed during system operational
     and development testing have been resolved or provisions have been made
     for resolution.

     In April 2006, an official in the Office of the Assistant Secretary of the Army
     (Acquisition, Logistics, and Technology) stated that the Life Cycle Management
     Commanders were given authority to approve the conditional release of items that
     had critical developmental and operational test issues outstanding at the full-rate
     production decision.


Continuation of Milestone Decision Responsibilities
     Army milestone decision authorities for 6 of 14 programs in production did not
     verify that program managers timely corrected critical system developmental and
     operational performance deficiencies outstanding at the full-rate production
     decision. Of the 21 acquisition programs reviewed, 14 had full-rate production
     decisions that occurred from 1980 through 2003. For 6 of the 14 programs,
     milestone decision authorities did not require program managers to report the
     status of the correction of critical developmental and operational test deficiencies.


                                          11
Because of the uncorrected deficiencies identified at the full-rate production
decision, the warfighter had to use the systems under an urgent or conditional
release of materiel.

Outstanding Operational and Developmental Test Issues. The six Army
programs that the milestone decision authority conditionally released to users at
the full-rate production decision were the Advanced Field Artillery Tactical Data
System; Bradley Fighting Vehicle System; Javelin; Patriot Advanced
Capability-3; Forward Area Air Defense Command, Control, and Intelligence
System; and the Secure Mobile Anti-Jam Reliable Tactical Terminal. Program
managers still had not resolved critical operational test deficiencies for the
Advanced Field Artillery Tactical Data System, which had its full-rate production
decision in December 1995, and the Patriot Advanced Capability-3, which had its
production decision in January 2005. Users were still operating the systems under
a conditional materiel release as of July 2006.

         Advanced Field Artillery Tactical Data System. The operational
requirements document, updated in February 2004, stated that interoperability was
a key performance parameter and that safe operation of the system was essential.
The milestone decision authority approved the conditional release of four previous
versions of the Advanced Field Artillery Tactical Data System because the system
software had not demonstrated horizontal interoperability with the Army Battle
Command Systems based on the results of operational testing. In February 2004,
the Army independent testers reported that the current version of the system
software had nine performance deficiencies. These deficiencies included three
critical test deficiencies: the continued inability to interoperate, and two safety
issues concerning soldier survivability resulting from the system’s failure to detect
coordination requirements from command and control units. In the system
evaluation report, Army independent testers stated that the program manager
should conduct further testing to resolve the three critical test deficiencies. The
SmartCharts that the program manager submitted to the milestone decision
authority in September 2005 did not report the status toward resolving the three
critical test deficiencies nor the other six test deficiencies identified in the system
evaluation report.

        Patriot Advanced Capability-3. The operational requirements document
for the missile system stated that operational availability was a critical technical
parameter. In the September 2002 system evaluation report, the Army
independent testers stated that the Patriot Advanced Capability-3 system was
effective and suitable with limitations. Limitations reported included a critical
operational test deficiency related to the operational availability of the system.
The system had a demonstrated mean-time-between-critical-mission-failure of
19.8 hours versus a requirement of 21 hours, and a demonstrated
mean-time-to-repair of 3.5 hours versus a requirement of 2 hours. Based on the
operational test deficiencies identified in the system evaluation report, the Army
Deputy Chief of Staff for Operations (G-3) issued an urgent materiel release for
the missile system in October 2002. Subsequently, in April 2004, the Army
Deputy issued a conditional materiel release for the missile system. At that time,
the program manager reported in his get-well plan a need to resolve 17 conditions
identified in the September 2002 system evaluations report. In the SmartCharts
submitted to the milestone decision authority in September 2005, the program
manager only reported on the correction of the identification friend or foe
condition, 1 of the 17 conditions identified in his get-well plan.


                                      12
    Program managers for the remaining four programs had obtained full materiel
    releases. However, program managers did not inform milestone decision
    authorities through SmartCharts of the resolution of outstanding materiel
    deficiencies before the Army Life Cycle Management Commanders granted full
    materiel releases.


Status Reporting
    Although Army milestone decision authorities were aware of their responsibility
    to oversee program manager progress in correcting critical system developmental
    and operational performance deficiencies outstanding at the full-rate production
    decision, they did not require the program managers to report the status on
    resolving those deficiencies in the quarterly SmartCharts.

    The Army Acquisition Executive requires program managers to prepare quarterly
    SmartCharts for the milestone decision authorities. Annually, the Army
    Acquisition Executive establishes the SmartChart template to provide guidance on
    the type of program data that program managers need to report for inclusion in the
    Army acquisition system database. The draft template for FY 2006 required
    program managers to focus on issues that affect program cost, schedule, and
    fielding, but it did not require program managers to report information on critical
    developmental and operational test deficiencies outstanding at the full-rate
    production decision. Although the SmartChart template allowed program
    managers to address other information that affected their programs, reporting the
    status of outstanding critical developmental and operational performance
    deficiencies was not mandatory.


Conclusion
    The Army milestone decision authorities’ responsibility to oversee programs does
    not end at the full-rate production decision when critical development and
    operational test deficiencies remain outstanding. Army milestone decision
    authorities must keep informed of the program manager’s progress toward
    resolving those issues to have assurance that warfighters are provided weapon
    systems that satisfy their operational requirements. If the system performance
    deficiencies do not get corrected before the production and fielding of large
    quantities of units, program managers can incur extensive retrofit costs to modify
    fielded systems.

    To help Army milestone decision authorities exercise their continuing milestone
    responsibilities, the Army’s SmartChart quarterly reporting requirements need to
    be revised to require program managers to report their status toward resolving
    critical developmental and operational test deficiencies that were outstanding at
    the full-rate production decision.




                                        13
Recommendation
    B. We recommend that the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology) revise reporting requirements for the quarterly
    program SmartCharts to require program managers to report their status toward
    resolving critical system operational and developmental performance deficiencies
    outstanding at the full-rate production decision as required by DoD Instruction
    5000.2, “Operation of the Defense Acquisition System.”

    Management Comments. The Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology) did not provide comments to the draft report.
    Accordingly, we request that he provide comments in response to the final report.




                                        14
Appendix A. Scope and Methodology
   We evaluated whether the Army Acquisition Executive’s management oversight
   and procurement authority for Acquisition Category (ACAT) IC and II programs
   was adequate. To accomplish this objective, we determined the effectiveness of
   the milestone decision authorities’ oversight and whether program managers
   provided the milestone decision authorities with required documentation in
   support of program milestone reviews.

   To evaluate the adequacy of Army milestone decision authorities’ oversight, we
   judgmentally selected 21 ACAT IC and II programs to review from a list of
   programs provided by the Assistant Secretary of the Army (Acquisition, Logistics,
   and Technology). The Army Acquisition Executive was the milestone decision
   authority for seven ACAT IC and one ACAT II programs selected for review.
   Seven of the 11 Army Program Executive Officers were the milestone decision
   authorities for the remaining 13 ACAT II programs selected for review. The
   remaining four Program Executive Officers were not included in the review
   because they did not oversee any ACAT II programs. We also evaluated the
   effectiveness of the process used by the Army contracting officers to solicit,
   negotiate, award, and administer contracts for the 21 acquisition program offices
   selected for review.

   We performed this audit from July 2005 through July 2006 in accordance with
   generally accepted government auditing standards. We reviewed documentation
   dated from June 1981 through December 2005, which we obtained from offices of
   the Assistant Secretary of the Army (Acquisition, Logistics, and Technology), and
   the Program Executive Office, Missiles and Space, Huntsville, Alabama; the
   Program Executive Office, Aviation, Huntsville, Alabama; the Program Executive
   Office, Simulation, Training, and Instrumentation, Orlando, Florida; the Program
   Executive Office, Ground Combat Systems, Warren, Michigan; the Program
   Executive Office, Combat Support and Combat Service Support, Warren,
   Michigan; the Program Executive Office, Ammunition, Picatinny Arsenal, New
   Jersey; the Program Executive Office, Soldier, Fort Belvoir, Virginia; the Program
   Executive Office, Command, Control, and Communications (Tactical), Fort
   Monmouth, New Jersey; the Program Executive Office, Chemical and Biological
   Defense, Fort Detrick, Maryland; and program offices and contracting officers for
   the 21 Army programs selected for review.
   To accomplish the audit objectives, we took the following steps.

      •   We reviewed DoD Directive 5000.1, “Defense Acquisition System,” to
          determine DoD policy applicable to all acquisition programs.

      •   We reviewed DoD Instruction 5000.2, “Operations of the Defense
          Acquisition System,” May 12, 2003, to determine whether Army
          acquisition programs were assigned the appropriate acquisition category
          and program managers were complying with mandatory DoD acquisition
          requirements. Specifically, we evaluated whether milestone decision
          authorities held program managers accountable for submitting required
          acquisition documentation at and between program milestone decision




                                       15
       points and whether milestone decision authorities maintained oversight of
       the resolution of critical developmental and operational test deficiencies
       after full-rate production decisions.

   •   We reviewed Army Regulation 70-1, “Army Acquisition Policy,”
       December 31, 2003, to determine whether the Assistant Secretary of the
       Army (Acquisition, Logistics, and Technology) implemented mandatory
       DoD acquisition requirements in the Regulation.

   •   We reviewed Federal Acquisition Regulation Part 15, “Negotiating
       Contracts,” to determine contracting officer requirements for supporting
       contract price reasonableness determinations in their price
       negotiation memorandums.

   •   We determined whether the conditions identified in audits of the Boeing
       KC-767A tanker aircraft (DoD Inspector General (IG) Report No.
       D-2003-129, “Assessment of DoD Leasing Actions,” August 29, 2003, and
       DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A
       Tanker Aircraft,” March 29, 2004) and the C-130J aircraft (DoD IG Report
       No. D-2004-102, “Contracting for and Performance of the C-130J
       Aircraft,” July 23, 2004) were also occurring in the execution of
       acquisition programs within the Army.

Limitations. We excluded from this review an evaluation of the milestone
decision authority oversight provided by the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) and the Program Executive Officer
Soldier for the Objective Individual Combat Weapon Program because of other
ongoing and completed audits of that program. DoD IG Report No. D-2006-004,
“Acquisition of the Objective Individual Combat Weapon,” October 7, 2005,
DoD IG Report No. D-2006-087, “Acquisition of the Objective Individual Combat
Weapon Increments II and III,” May 15, 2006, and DoD IG Report No. D-2006-
123, “Program Management of the Objective Individual Combat Weapon
Increment I,” September 29, 2006, addressed management oversight internal
control weaknesses on that program. Also, because of limited travel resources, we
did not visit Defense Contract Management Agency Offices at the contractor
locations to review documentation for acceptance and delivery of the systems
from the contractors.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Use of Technical Assistance. A representative from the Quantitative Methods
Division, Office of the DoD Assistant Inspector General for Policy and Oversight,
developed the criteria for selecting the appropriate sample size of Army ACAT IC
and II programs to be reviewed. Based on the number of Army milestone decision
authorities, the representative stated that 50 percent of the ACAT IC programs and
50 percent of the ACAT II programs within each Program Executive Office should
be selected for review. Applying the recommended criteria, we selected 7 ACAT
IC programs and 14 ACAT II programs for review. The following table shows the
results of the program selection process.




                                    16
                                                  Program Selection Process

                                                          ACAT IC                                      ACAT II
Milestone Decision Authority                  Programs Reviewed Percentage               Programs Reviewed Percentage
Army Acquisition Executive                          14        7         50                      4        2         50
Program Executive Offices:
 Ammunition                                           0             0         N/A1                 3            2               67
 Aviation                                             0             0         N/A1                 1            1           100
 Chemical and Biological
                                                      0             0         N/A1                 2            1               50
  Defense
 Combat Support and Combat
                                                      0             0         N/A1                 0            0         N/A2
  Service Support
 Command, Control, and
                                                      0             0         N/A1                 8            4               50
  Communications (Tactical)
 Enterprise Information Systems                       0             0         N/A1                 0            0         N/A2
 Ground Combat Systems                                0             0         N/A1                 2            1               50
 Intelligence, Electronic Warfare,
                                                      0             0         N/A1                 0            0         N/A2
  and Sensors
 Missiles and Space                                   0             0         N/A1                 4            2               50
 Simulation, Training, and
                                                      0             0         N/A1                 1            1           100
  Instrumentation
 Soldier                                              0             0         N/A1                 0            0               03
                                 Total:              14             7            50              25            14               56
1 DoD Instruction 5000.2 requires the Army Acquisition Executive to be the milestone decision authority for ACAT IC programs.
2 PEOs for Combat Support and Combat Service Support, Enterprise Information Systems, and Intelligence, Electronic Warfare, and
  Sensors were not milestone decision authorities for any ACAT II programs.
3 The only PEO Soldier ACAT II program is the Objective Individual Combat Weapon. We did not review it because
  of ongoing DoD IG audits of that program.


          Government Accountability Office High-Risk Area. The Government
          Accountability Office (GAO) has identified several high-risk areas in DoD. This
          report provides coverage of the DoD Weapon System Acquisition high-risk area.


Prior Coverage
          During the last 5 years, GAO, DoD IG, and Army Audit Agency (AAA) issued
          five reports that discussed material management control weaknesses associated
          with the acquisition of Army ACAT IC and II programs. Unrestricted GAO,
          DoD IG, and Army Audit Agency reports can be accessed at http://www.gao.gov,
          http://www.dodig.mil/audit/reports and https://www.aaa.army.mil/reports,
          respectively.

          GAO
          GAO Report No. GAO-05-427, “Defense Logistics: Better Management and
          Oversight of Pre-positioning Programs Needed to Reduce Risk and Improve
          Future Programs,” September 6, 2005


                                                               17
GAO Report No. GAO-01-372, “Defense Inventory: Steps the Army Can Take to
Improve the Management and Oversight of Excess Ammunition,” April 12, 2001

DoD IG
DoD IG Report No. D-2006-123, “Program Management of the Objective
Individual Combat Weapon Increment I,” September 29, 2006

DoD IG Report No. D-2006-087, “Acquisition of the Objective Individual Combat
Weapon Increments II and III,” May 15, 2006

DoD IG Report No. D-2006-004, “Acquisition of the Objective Individual Combat
Weapon,” October 7, 2005

DoD IG Report No. D-2004-047, “Implementation of the DoD Management
Control Program for Army Acquisition Category II and III Programs,”
January 23, 2004

AAA
AAA Report No. A-2003-0054-FFG, “Review of the Army Management Control
Process (Fiscal Year 2002), An Assessment for the Secretary of the Army,”
November 13, 2002

AAA Report No. AA 02-123, “Review of the Army Management Control Process
(Fiscal Year 2001), An Assessment for the Secretary of the Army,”
January 8, 2002




                                 18
Appendix B. Glossary
   Acquisition Category. An acquisition category is established to facilitate
   decentralized decision making and execution and compliance with statutory
   requirements. The categories determine the level of review, decision authority,
   and applicable procedures.

   Acquisition Category I. Acquisition Category I programs are major Defense
   acquisition programs. A major Defense acquisition program is a program
   estimated by the Under Secretary of Defense for Acquisition, Technology, and
   Logistics to require eventual expense for research, development, test and
   evaluation of more than $365 million (FY 2000 constant dollars) or procurement
   of more than $2.19 billion (FY 2000 constant dollars), or those otherwise
   designated by the Under Secretary of Defense for Acquisition, Technology, and
   Logistics to be Acquisition Category I.

   Acquisition Category IC. Acquisition Category IC programs are major Defense
   acquisition programs for which the Under Secretary of Defense for Acquisition,
   Technology, and Logistics has delegated milestone decision authority to the DoD
   Component Head or the DoD Component Acquisition Executive.

   Acquisition Category II. Acquisition Category II programs are acquisition
   programs that do not meet the criteria for an Acquisition Category I program, but
   do meet the criteria for a major system. A major system is a program estimated by
   the DoD Component Head to require eventual expense for research, development,
   test and evaluation of more than $140 million (FY 2000 constant dollars), or for
   procurement of more than $660 million (FY 2000 constant dollars) or those
   otherwise designated by the DoD Component Head to be Acquisition Category II.
   The milestone decision authority is the DoD Component Acquisition Executive.

   Acquisition Decision Memorandum. The acquisition decision memorandum is a
   memorandum signed by the milestone decision authority that documents decisions
   made as the result of a milestone decision review or decision review.

   Acquisition Executive. Acquisition executives are the individuals charged with
   the overall acquisition management responsibilities within their
   respective organizations.
   Acquisition Plan. An acquisition plan is a formal written document reflecting the
   specific actions necessary to execute the approach established in the approved
   acquisition strategy and guiding contractual implementation.

   Acquisition Program Baseline. The acquisition program baseline prescribes the
   key cost, schedule, and performance constraints that must be achieved by the
   program before the next milestone decision review in the acquisition process.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the resource
   constraints. It is the framework for planning, directing, contracting for, and
   managing a program. It provides a master schedule for research, development,
   test, production, fielding, modification, postproduction management, and other



                                       19
activities essential for program success. The acquisition strategy is the basis for
formulating functional plans and strategies (for example, test and evaluation
master plans and acquisition plans).

Analysis of Alternatives. An analysis of alternatives is the evaluation of the
operational effectiveness, operational suitability, and estimated costs of alternative
systems to meet a mission capability. The analysis assesses the advantages and
disadvantages of alternative systems being considered to satisfy a validated need,
including the sensitivity of each alternative to possible changes in key
assumptions or variables.

Command, Control, Communications, Computers, and Intelligence Support
Plan. This plan is a required document for all acquisition programs that connect
in any way to the communications and information infrastructure, and includes
both information technology systems and National Security System programs.
The plan identifies command, control, communications, computers, intelligence,
surveillance, and reconnaissance needs, dependencies, and interfaces. It focuses
on interoperability, supportability, and sufficiency concerns throughout a
program’s life cycle.

Capability Development Document. A capability development document
captures the information necessary to develop a proposed program, normally using
an evolutionary acquisition strategy. The capability development document
outlines an affordable increment of militarily useful, logistically supportable, and
technically mature capability. The capability development document supports a
system development and demonstration program decision review.

Capability Production Document. A capability production document addresses
the production elements specific to a single increment of an acquisition program.
The Joint Requirements Oversight Council validates and approves the capability
production document before a production and deployment decision review. The
capability production document has key performance attributes and parameters
that are more refined than those in a capability development document.

Capstone Requirements Document. A capstone requirements document
contains capabilities-based requirements that facilitate the development of
individual capability development documents. It provides a common framework
and operational concept to guide capability development documents. Capstone
requirements documents that have been approved by the Joint Requirements
Oversight Council are valid until absorbed into appropriate integrated
architectures as required by Chairman of the Joint Chief of Staff
Instruction 3170.1E, “Joint Capabilities Integration and Development System,”
May 11, 2005. The Joint Requirements Oversight Council retains the authority to
specifically direct the development of new capstone requirements documents,
as necessary.

Conditional Materiel Release. Materiel release conditions, deficiencies, or
shortfalls are generally recognized as issues that are significant enough to be
raised to decision makers for consideration before release approval. A conditional
materiel release is the release of an item for use when test deficiencies, or
shortfalls occur. The program manger lists all conditions in a “get-well plan” and
categorizes the deficiencies accordingly.



                                     20
Contracting Officer. A contracting officer has the authority to enter into,
administer, and terminate contracts and make related determinations and findings
for the Government.

Cost Analysis. A cost analysis is an analysis and evaluation of each element of
cost in a contractor’s proposal to determine reasonableness.

Developmental Test and Evaluation. Developmental test and evaluation is any
engineering test used to verify status of weapon systems technical progress, verify
that design risks are minimized, substantiate achievement of contract technical
performance, and certify readiness for initial operational testing. Development
tests generally require instrumentation and measurements and are accomplished by
engineers, technicians, or soldier operator-maintainer test personnel in a controlled
environment to facilitate analysis of failures.

Information Support Plan. The information support plan, formerly known as the
command, control, communications, computers, and intelligence support plan,
identifies and documents information needs, infrastructure support, information
technology, and National Security Systems interface requirements and
dependencies. The information support plan focuses on net-centricity,
interoperability, supportability, and sufficiency concerns.

Initial Operational Test and Evaluation. An initial operational test and
evaluation is a dedicated operational test and evaluation conducted on production
or production-representative articles to determine whether systems are
operationally effective and suitable to support a decision to proceed beyond
low-rate initial production.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide data, information, materiel, and services to (and accept the same from)
other systems, units, or forces. This exchange enables systems, units, and forces
to operate effectively together.

Key Performance Parameter. A key performance parameter is the minimum
attribute or characteristic considered most essential for an effective military
capability. For capabilities documents, key performance parameters are validated
by the Joint Requirements Oversight Council for joint requirements documents, by
the Functional Capabilities Board for requirements documents that jointly affect
Services, and by the DoD Component for requirements documents that are
prepared independently by a Service. The capability development document and
the capability production document key performance parameters are included
verbatim in the acquisition program baseline agreement.

Life-Cycle Cost. Life-cycle cost is the total cost to the Government of acquisition
and ownership of a system over its useful life. It includes the cost of development,
acquisition, operations, and support (including human resources), and where
applicable, disposal.

Low-Rate Initial Production. Low-rate initial production is the first segment of
the production and deployment phase. Its purpose is to establish an initial
production base for the system, permit an orderly ramp-up sufficient to lead to a
smooth transition to full-rate production, and to provide production-representative
articles for initial operational test and evaluation and live-fire testing. For major


                                     21
Defense acquisition programs, low-rate initial production quantities in excess of
10 percent of the acquisition objective must be reported in the selected
acquisition report.

Milestone Decision Authority. The milestone decision authority is the
designated individual with overall responsibility for a program. The milestone
decision authority approves program initiation and entry of an acquisition program
into the next phase of the acquisition process. The milestone decision authority is
accountable for cost, schedule, and performance reporting to higher levels of
management, including congressional reporting.

Net-Ready Key Performance Parameter. A net-ready key performance
parameter addresses information needs, information timeliness, information
assurance, and network functions required for information exchange and use. A
net-ready key performance parameter consists of measurable and testable
characteristics, performance metrics, or both, required for the timely, accurate, and
complete exchange and use of information to satisfy information needs for a given
capability. The net-ready key performance parameter is documented in the
capability development document, the capabilities production document, and the
capstone requirements document.

Operational Requirements Document. An operational requirements document
is a legacy document that contains performance parameters and related operational
performance parameters for the proposed concept or system. Operational
requirements documents were accepted for Joint Staff review until
December 2003. Capability development documents and capability production
documents developed in accordance with Chairman of the Joint Chiefs of Staff
Instruction 3170.01C replaced the operational requirements document. The
Instruction allows a validated and approved operational requirements document to
be used to support program initiation and the low-rate initial production decision
until June 2005, after which all programs must use capability development
documents and capability production documents.

Operational Test and Evaluation. Operational test and evaluation is the field
test, under realistic conditions, of any item (or key component) of weapons,
equipment, or munitions for the purpose of determining its effectiveness and
suitability for use in combat by typical military users.

Program Executive Officer. A Program Executive Officer is a military or
civilian official who has the responsibility for directing several major Defense
acquisition programs and for directing major and nonmajor system acquisition
programs. A Program Executive Officer has no other command or staff
responsibilities within the Component, and reports to and receives guidance from
only the DoD Component Acquisition Executive.

Research, Development, Test and Evaluation. Research, development, test and
evaluation are activities for developing a new system or expanding the
performance of fielded systems.

System Development and Demonstration. The system development and
demonstration phase (milestone B) is the third phase of the DoD system
acquisition process and consists of system integration and system demonstration.
This phase also contains a design readiness review at the conclusion of the
system integration.

                                     22
Test and Evaluation Master Plan. The test and evaluation master plan
documents the overall structure and objectives of the test and evaluation program.
It provides a framework for generating detailed test and evaluation plans and for
documenting schedule and resource implications associated with the test and
evaluation program. The test and evaluation master plan identifies the necessary
developmental test and evaluation, operational test and evaluation, and live-fire
test and evaluation activities.

Urgent Materiel Release. An urgent materiel release satisfies the need to field
equipment to meet an urgent operational requirement in support of
specific operations.

Urgent Need Statement. An urgent need statement is a request from Field
Commanders that identifies situations where soldiers’ lives are jeopardized or
mission accomplishment cannot be met without system being requested. The need
statement is forwarded to the U.S. Army Office of the Deputy Chief of Staff for
Operations who, in coordination with the U.S. Army Materiel Command and the
U.S. Army Training and Doctrine Command, determines whether to support the
request and take immediate action to satisfy the urgent need.




                                    23
Appendix C. Description of the 21 Army
            Weapon Systems

Acquisition Category IC Programs
    Bradley Fighting Vehicle System Upgrade. The Bradley Fighting Vehicle
    System Upgrade is under the Program Executive Office (PEO) for Ground Combat
    Systems. The Army Acquisition Executive is the milestone decision authority for
    this program. The Bradley Upgrade has been in the production phase of the
    acquisition process since its full-rate production review on April 30, 2001. The
    Bradley was upgraded with enhanced command and control, greater lethality, and
    additional protection for transport of infantry soldiers to critical points on
    the battlefield.

    Excalibur—Projectile, 155-Millimeter Extended Range (XM982). The
    Excalibur is under the PEO for Ammunition with the Army Acquisition Executive
    as the milestone decision authority. The Excalibur satisfies the need for a cannon-
    delivered projectile that enables the maneuver commander to engage critical
    targets to include fleeting or short-dwell targets with increased precision, range,
    and lethality while minimizing collateral damage in the target area. The Army’s
    most recent involvement in Operations Iraqi Freedom and Enduring Freedom has
    reinforced the need for Excalibur’s responsive precision attack of critical point
    targets, including targets in urban environments or restrictive terrain, under all
    weather conditions while minimizing collateral damage. Prompted by an urgent
    need request from the warfighter, the milestone decision authority approved the
    Excalibur Block 1a-1 for low-rate initial production in May 2005 and plans to hold
    a low-rate initial production review for Block 1a-2 in FY 2007. Excalibur is the
    first satellite-guided extended-range projectile.

    Family of Medium Tactical Vehicles. Family of Medium Tactical Vehicles
    (FMTV) is under PEO for Combat Support and Combat Service Support with the
    Army Acquisition Executive assigned as the milestone decision authority. The
    FMTV program has been in the production phase of the acquisition process since
    its full-rate production review in August 1995. The mission of the FMTV is to
    transport cargo, soldiers, and associated equipment in local and line haul missions
    in combat, combat support, and combat service support missions.

    Javelin (Advanced Anti-Tank Weapon System—Medium). The Javelin is
    under the PEO for Missiles and Space with the Army Acquisition Executive
    assigned as the milestone decision authority. The Javelin has been in the
    production phase of the acquisition process since its full-rate production review in
    May 1997. The Javelin is a man-portable, fire-and-forget, medium anti-tank
    missile employed by dismounted troops to defeat current and future threat armored
    combat vehicles out to 2,000 meters. The Javelin attacks most targets from the top
    to defeat explosive reactive armor. It also has the capability, in the direct fire
    mode, to attack targets under cover or those that would be unreachable by top
    attack.




                                        24
    Land Warrior. The Land Warrior is under the PEO for Soldier with the Army
    Acquisition Executive assigned as the milestone decision authority. The Land
    Warrior program is in the system development and demonstration phase of the
    acquisition process and is preparing for a low-rate initial production decision in
    FY 2007. The Land Warrior program is the first holistic, integrated system of
    systems focused on the needs of the individual soldier. The Land Warrior builds
    on the soldier’s inherent abilities and equips the soldier to endure environmental
    threats while integrating the soldier into the digital battlefield. The Land Warrior
    system includes soldier equipment such as uniform, ballistic, nuclear, biological,
    and chemical protection, and a personal electronics system that provides the
    soldier with power, computation, network communications, and geo-location.

    Longbow Hellfire. The Longbow Hellfire missile program is under the PEO for
    Missiles and Space with the Army Acquisition Executive assigned as the
    milestone decision authority. The Longbow Hellfire program has been in the
    production phase of the acquisition process since its full-rate production decision
    review in October 1995. The Longbow Hellfire missile program started following
    Desert Storm when the Army had a need for a missile that could perform in
    adverse weather, battlefield smoke, and dust, which are conditions that
    significantly degrade the range of the laser designators and electro-optically
    guided missiles.

    Patriot Advanced Capability-3. The Patriot Advanced Capability-3 (PAC-3) is
    under the PEO for Missiles and Space with the Army Acquisition Executive
    assigned as the milestone decision authority. The PAC-3 was approved for block
    production in January 2005. The PAC-3 missile provides essential increases in
    battle space, accuracy, lethality, and firepower required to counter the most
    stressing tactical ballistic missile and air-breathing threats for the future. The
    PAC-3 program office is developing a new missile called the missile segment
    enhancement, which will improve the performance of the system. The new
    missile segment enhancement will improve system performance by increasing
    maneuverability and enabling higher altitude engagements and longer down-range
    engagements. In September 2002, the Army Deputy Chief of Staff for Operations
    (G-3) approved an urgent materiel release of the PAC-3 missile segment in
    anticipation of a need for the missile during Operations Iraqi Freedom and
    Enduring Freedom.


Acquisition Category II Programs
    2.75-Inch Rocket System. The 2.75-Inch Rocket Program has the PEO for
    Missiles and Space as its milestone decision authority. The 2.75-Inch Rocket has
    been in the production phase of the acquisition process since its full-rate
    production decision in 1980. The 2.75-Inch Rocket is an unguided missile that
    provides air-to-ground suppression, smoke screening, illumination, and direct and
    indirect fires to defeat area materiel and personnel targets at close and
    extended ranges.

    Army Constructive Training Federation. The Army Constructive Training
    Federation (ACTF) Program is under the PEO for Simulation, Training, and
    Instrumentation with the Army Acquisition Executive retaining responsibility as
    the milestone decision authority. The ACTF simulates the battle command


                                         25
environment to provide training to unit commanders, staff, and command posts on
how to focus warfighters and systems when countering threats. The ACTF is in
development and has a low-rate initial production decision scheduled for the
fourth quarter of FY 2006. The Army needs the ACTF program to train large
groups of personnel without having to expend funds to destroy military devices in
demonstration and training activities.

Advanced Field Artillery Tactical Data System. The Advanced Field Artillery
Tactical Data System (AFATDS) Program has the PEO for Command, Control,
and Communications (Tactical) as its milestone decision authority. The AFATDS
program has been in the production phase of the acquisition process since its
full-rate production decision in December 1995. The AFATDS provides Army,
Navy, Air Force and Marine Corps units with automated fire support through
command, control, and communications. The AFATDS pairs targets to weapons
platforms to provide optimum use of fire support assets.

Close Combat Tactical Trainer. The Close Combat Tactical Trainer (CCTT)
Program has the PEO for Simulation, Training, and Instrumentation as its
milestone decision authority. The CCTT program has been in the production
phase of the acquisition process since its full-rate production decision in
December 1998. The CCTT program is a simulation system that replicates actual
combat vehicles, weapon systems, and command and control elements. These
elements are networked for real-time, fully interactive, collective task training on
computer-generated terrain. The system’s computers create a simulated battlefield
which, when viewed by soldiers using the system, creates the illusion of moving
and fighting over actual terrain, operating or riding inside the actual vehicles, and
employing the actual weapon systems mounted in or on the vehicles.

Extended Range Multi-Purpose Unmanned Aerial Vehicle. The Extended
Range Multi-Purpose Unmanned Aerial Vehicle (ERMP UAV) Program has the
PEO for Aviation as its milestone decision authority. The ERMP UAV program
entered into the system development and demonstration phase of the acquisition
process in April 2005, and has a low-rate initial production decision scheduled in
July 2008. The ERMP UAV system will provide combatant commanders with a
real-time responsive capability to conduct long-term, wide area, near real-time
reconnaissance, surveillance, target acquisition, communication relay, and attack
missions. The ERMP UAV system will provide more coverage than five legacy
systems could provide combined.

Forward Area Air Defense Command, Control, and Intelligence System. The
Forward Area Air Defense Command, Control, and Intelligence (FAADC2I)
System Program has the PEO for Command, Control, and Communications
(Tactical) as its milestone decision authority. The FAADC2I program has been in
the production phase of the acquisition process since its full-rate production
decision in April 1995. The FAADC2I system provides critical FAAD
information to support the command and control decision process at various levels
of command. To provide this capability, the FAADC2I system ties weapons
together in a network that integrates the FAADC2I system into the Army
command and control system architecture.

Joint Vaccine Acquisition Program. The Joint Vaccine Acquisition Program
(JVAP) is under the Joint PEO for Chemical and Biological Defense with the Joint
PEO retaining responsibility as the milestone decision authority. The goal of


                                     26
the JVAP program is to develop, produce, and stockpile medical products licensed
by the Food and Drug Administration to protect the warfighter in a biological
warfare environment.

Cartridge, 120-Millimeter, M829A3. The Cartridge, 120-Millimeter, M829A3
Program (the M829A3) has the PEO for Ammunition as its milestone decision
authority. The M829A3 program has been in the production phase of the
acquisition process since its full-rate production decision in March 2003. The
M829A3 cartridges are anti-armor kinetic energy rounds that are fired from the
M256 120-millimeter smoothbore cannon mounted on the Abrams main battle
tank. The M829A3 cartridge was developed to counter advances in armor
protection technologies, including explosive reactive armor.

Maneuver Control System. The Maneuver Control System (MCS) Program has
the PEO for Command, Control, and Communications (Tactical) as its milestone
decision authority. The MCS program entered full-rate production decision in
June 2005. The MCS provides a primary point of interface for interoperability
with related command-oriented information systems of joint and allied forces. The
MCS enables commanders to better command and control forces by providing the
ability to see and understand the battle space faster and with greater clarity. The
MCS is also used by the Active Army, Army Reserve, and National
Guard Components.

Paladin Field Artillery Ammunition Support Vehicle. The Paladin Program
has the PEO for Ground Combat Systems as its milestone decision authority. The
Paladin program has been in the production phase of the acquisition process since
its full-rate production decision in March 1993. The Paladin is a 155-millimeter
self-propelled howitzer artillery weapon system that provides the primary
indirect fire support for modular heavy brigade combat teams and armor and
mechanized infantry divisions. The system consists of an improved version of the
M109 self-propelled howitzer with significant enhancements in survivability,
reliability, availability, maintainability, range, and rate-of-fire.

Shadow Tactical Unmanned Aerial Vehicle. The Shadow Program is under the
PEO for Aviation with the Army Acquisition Executive retaining responsibility as
the milestone decision authority. The Shadow program has been in the production
phase of the acquisition process since its full-rate production decision in October
2002. The Shadow is an unmanned aerial vehicle system that provides flexible,
responsive, near real-time reconnaissance, surveillance, target acquisition, battle
damage assessment, and battle management support to maneuver commanders at
brigade and armored cavalry regiments for peace and war operations.

Surface-Launched Advanced Medium Range Air-to-Air Missile. The Surface-
Launched Advanced Medium Range Air-to-Air Missile (SLAMRAAM) Program
has the PEO for Missiles and Space as its milestone decision authority. The
SLAMRAMM program has been in the system development and demonstration
phase of the acquisition process since September 2003 and has a low-rate initial
production decision scheduled for third quarter FY 2006. The SLAMRAAM
missile system will protect the force from aerial surveillance and air attack. The
SLAMRAAM will also support a variety of Army missions at the tactical,
operational, and strategic levels of warfare including dominance, control, and
exploitation of the Army, interagency, joint, and multinational force aerial battle
space.


                                    27
    Secure Mobile Anti-Jam Reliable Tactical Terminal. The Secure Mobile Anti-
    Jam Reliable Tactical Terminal (SMART-T) Program has the PEO for Command,
    Control, and Communications (Tactical) as its milestone decision authority. The
    SMART-T program has been in the production phase of the acquisition process
    since its full-rate production decision in January 1999. The SMART-T terminal
    provides secure anti-jam data and voice communication for tactical users over the
    extremely high frequency and super high frequency ranges. The SMART-T is an
    integral part of the Army’s future communications architecture and serves as the
    key transmission system for range extension of the Warfighter Information
    Network-Tactical System.


Preacquisition Program
    Mid Range Munition (MRM). The Mid Range Munition Program is a
    preacquisition program under the oversight of the Army Research Development
    and Engineering Center, Picatinny Arsenal, New Jersey, with plans to transition to
    the PEO for Ammunition in FY 2008. The MRM is a precision-guided munition
    that will provide a moving or stationary Mounted Combat System with the
    capability to engage and destroy moving and stationary targets in a
    beyond-line-of-sight mode. The objective of the MRM program is to provide the
    Mounted Combat System of the Future Combat System and M1A2 System
    Enhancement Performance Program with a precision munition that is capable of
    defeating line-of-sight and beyond-line-of-sight threats out to more than
    12 kilometers.




                                        28
Appendix D. Comparison With Conditions
            Identified on Audits of Boeing
            KC-767A and C-130J Aircraft
   As a result of audits of the Boeing KC-767A Tanker Aircraft (Report Nos.
   D-2003-129, “Assessment of DoD Leasing Actions,” August 29, 2003, and
   D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,”
   March 29, 2004) and the C-130J Aircraft (Report No. D-2004-102, “Contracting
   for and Performance of the C-130J Aircraft,” July 23, 2004), the DoD Inspector
   General (IG) initiated the series of audits of the Service acquisition executives to
   determine if management oversight problems identified in the referenced reports
   were more widely occurring across the Military Departments. At the
   April 14, 2005, hearing on management and oversight of Air Force acquisition
   programs, the Senate Armed Services Subcommittee also expressed interest in the
   results of the DoD IG audits concerning whether similar conditions were
   occurring within the other Services. The results of the review of 21 Army
   Acquisition Category IC and II programs as related to the 15 conditions identified
   in the earlier audits of the two Air Force acquisition programs follows.
   1. Condition: The former Deputy Assistant Secretary of the Air Force
   (Acquisition) used her position as the milestone decision authority and head of
   Air Force contracting to conduct and inappropriately influence the results of the
   contract negotiations with Boeing to acquire Boeing KC-767A tanker aircraft.

   Question: Did acquisition executives within the Army use their positions as
   milestone decision authorities to inappropriately influence the results of
   contractor selection and negotiations for the 21 programs selected for review?

   Results: For the 21 programs reviewed, we did not find evidence that acquisition
   executives within the Army used their positions to inappropriately influence the
   results of contractor selection and negotiations.

   2. Condition: On both the Boeing KC-767A tanker aircraft and the C-130J
   programs, Air Force contracting officers did not properly justify the use of a
   commercial item acquisition strategy. The Federal Acquisition Regulation states
   that a commercial item is any item, other than real property, that is used
   customarily by the general public or by nongovernmental entities for purposes
   other than governmental purposes. Further, commercial items are those that have
   been sold, leased, or licensed to the general public; or have been offered for sale,
   lease, or license to the general public.

   Question: Did Army contracting officers use and properly justify the use of a
   commercial item acquisition strategy for the 21 programs selected for review?

   Results: For the 21 programs reviewed, Army contracting officers did not use a
   commercial item acquisition strategy. Army contracting officers used Federal
   Acquisition Regulation Part 15, “Contracting by Negotiation,” as part of their
   acquisition planning.




                                        29
3. Condition: On the C-130J program, the Air Force conditionally accepted the
delivery of C-130J aircraft that did not meet commercial contract specifications or
operational requirements.

Question: Did the Army acquisition officials conditionally accept delivery of
items before the items met contract specifications and operational requirements
for the 21 programs selected for review?

Results: As discussed in Appendix A, we did not visit Defense Contract
Management Agency Offices at the contractor locations to determine whether the
systems for the 21 programs reviewed had been accepted before meeting contract
specifications. However, contract terms for 1 of the 21 programs, the Family of
Medium Tactical Vehicles, authorized the Defense Contract Management Agency
Office to conditionally accept the delivery of systems before the systems met
contract specifications or operational requirements. We plan to determine
whether the Army conditionally accepted any medium tactical vehicles before
meeting contract specifications under a separate audit project.

4. Condition: On the C-130J program, the Air Force contracting officer did not
adequately manage the financing of the contract. This inadequate management
resulted in the Air Force paying the contractor 85 percent of the price of the
aircraft before aircraft acceptance inspection and 99 percent of the price of the
aircraft on conditional acceptance and delivery of noncompliant aircraft.

Question: Did Army contracting officers properly manage the financing of
deliverable items on the 14 production contracts included in the 21 programs
selected for review?

Results: On 8 of 14 production contracts, the Army contracting officers included
Federal Acquisition Regulation Clause 52-232-16, “Progress Payments,” or
Defense Federal Acquisition Regulation Clause 252-232-7004, “Progress
Payment Rates,” which limited the contractor financing to 80 percent or less, of
the contract price before acceptance of the deliverable items. Four other
production contracts included a contract clause to base progress payments on
contractual performance. The remaining two production contracts did not include
either the clause or base progress payments on contractual performance. As
stated in the results section for Question 3, the contract terms for the Family of
Medium Tactical Vehicles authorized the Defense Contract Management Agency
Office to conditionally accept the delivery of systems before the systems met
contract specifications or operational requirements.

5. Condition: On the Boeing KC-767A tanker aircraft program, the Air Force
contracting officer negotiated a prohibited cost-plus-a-percentage-of-cost
contract. Cost-plus-a-percentage-of-cost contracts are prohibited by section 2306
(a), title 10, United States Code, “Kinds of Contracts.” The Federal Acquisition
Regulation states that a cost-plus-a-percentage-of-cost contract is a cost
reimbursement contract that provides a contractor a fee based on a specified
percentage of the contractor’s actual cost of performing the work. According to
the Government Accountability Office, a cost-plus-a-percentage-of-cost contract
occurs on either fixed-price or cost contracts when contracting officers award a
contract for which:

   •   payment for profit is based on a predetermined percentage rate;


                                    30
   •   a predetermined percentage rate applies to the actual cost of
       work performed;

   •   contractor entitlement is uncertain at the time of contracting;

   •   contractor entitlement increases commensurately with increased
       performance costs; and

   •   Government audit rights are excluded.

Question: Did Army contracting officers use a prohibited
cost-plus-a-percentage-of-cost system of contracting through the use of limitation
of earnings clauses and the exclusion of Government audit rights on the 21
programs selected for review?

Results: We did not find any instances where the contracting officers structured
and awarded a contract that could be defined as a cost-plus-a-percentage-of-cost
contract. We reviewed the basic contract clauses, the award fee plans, the
incentive fee schedules, and the cost performance reports that were available for
the 27 fixed-price and cost contracts for the 21 programs selected for review. Of
the 27 contracts, 22 included the Government audit rights clause as part of the
contract and did not contain any of the other 4 conditions where a
cost-plus-percentage-of-cost contract could occur. For the remaining five
contracts where the Government audit rights clause was not included, we
determined that a cost-plus-percentage-of-cost contract structure did not exist
because the contracts did not contain the other four conditions.

6. Condition: On the Boeing KC-767A tanker aircraft program, the proposed
lease did not meet all of the criteria requirements for an operating lease. Further,
the proposed lease would have cost the Air Force more than purchasing the
aircraft. Office of Management and Budget Circular A-11 states that an operating
lease must meet the following six requirements.

   •   The asset is a general-purpose asset rather than being for a special purpose
       of the Government and is not built to unique specification of the
       Government as a lessee.

   •   There is a private-sector market for the asset.

   •   The present value of the minimum lease payments over the life of the
       lease does not exceed 90 percent of the fair market value of the asset at the
       beginning of the lease term.

   •   The lease does not contain a bargain-price purchase option.

   •   Ownership of the asset remains with the leasor during the term of the lease
       and is not transferred to the Government at or shortly after the end of the
       lease term.

   •   The lease term does not exceed 75 percent of the estimated economic life
       of the asset.




                                     31
Question: Did Army contracting officers use and properly justify the use of
leases in accordance with Office of Management and Budget Circular A-11 on the
21 programs selected for review?

Results: For the 21 programs reviewed, Army contracting officers did not
consider the use of a lease before awarding contracts for the weapon systems.

7. Condition: On the Boeing KC-767A tanker aircraft program, the Air Force
contracting officer did not require Boeing to submit cost and pricing data related
to prior commercial sales to enable the Air Force contracting officer to determine
price reasonableness.

Question: Did Army contracting officers require contractors to submit cost or
pricing data to enable the contracting officers to determine price reasonableness
for the 21 programs selected for review?

Results: As indicated in price negotiation memorandums for 20 of 21 programs
reviewed, Army contracting officers relied on cost or pricing data to negotiate the
contract price and support a price reasonableness determination. The Army had
not awarded a contract on the remaining program, the Mid Range Munition,
because it is a preacquisition program.

8. Condition: The Assessment of Leasing Actions report stated that the
Air Force took full advantage of Section 8159 of the DoD Appropriations Act for
FY 2002 that authorized the Air Force to lease not more than 100 general purpose
Boeing KC-767 aircraft. With this authority, the Air Force did not prepare a
formal analysis of alternatives to determine the best possible system solution to
fulfill its need for a tanker aircraft replacement. DoD Instruction 5000.2 requires
that an analysis of alternatives be completed before program initiation and
approved by the Director, Program Analysis & Evaluation for major Defense
acquisition programs. The analysis of alternatives is an evaluation of the
system’s operational effectiveness, operational suitability, and estimated costs of
alternative systems to meet a mission capability. The analysis assesses the
advantages and disadvantages of alternatives being considered to satisfy
capabilities, including the sensitivity of each alternative to possible changes in
key assumptions or variables.

Question: Did the Army prepare an analysis of alternatives to support the
acquisition of the 21 programs selected for review?

Results: For the 21 acquisition programs reviewed, the Army milestone decision
authorities had approved 6 programs for entry into the system development and
demonstration phase of the acquisition process within the last 5 years. For two
(one ACAT IC and one ACAT II) of the six programs, the Army did not prepare
an analysis of alternatives as required. On the Excalibur Program (an ACAT IC
program), the Army prepared a “Precision Munitions Mix Analysis” but not an
approved analysis of alternatives in support of the low-rate initial production
decision. For the Army Constructive Training Federation (an ACAT II program),
the program manager stated that the milestone decision authority approved the
program for entry into system development and demonstration with the provision
that the program manager must obtain an analysis of alternatives.

Finding A addresses the issue of program documentation available to milestone
decision authorities at program reviews.

                                    32
9. Condition: On the Boeing KC-767A tanker aircraft program, the Office of
the Assistant Secretary of the Air Force (Acquisition) did not establish a
disciplined acquisition strategy to ensure that the warfighters operational
requirements were being satisfied. The Office of Management and Budget
Circular A-109, “Major System Acquisitions,” April 5, 1976, states that Federal
agencies should tailor an acquisition strategy for each major system to ensure that
each major system fulfills a mission need and operates effectively in its intended
environment. DoD Instruction 5000.2 requires the program manager to prepare
and the milestone decision authority to approve an acquisition strategy by the
system development and demonstration acquisition phase of the acquisition
process.

Question: Did Army program managers prepare disciplined acquisition
strategies in accordance with requirements in Office of Management and Budget
Circular A-109 and DoD Instruction 5000.2 for the 21 programs selected for
review?

Results: Six programs were in the system development and demonstration phase
of the acquisition process. For one of the six, the program manager had not
completed a disciplined acquisition strategy because approval of the capabilities
development document was pending. The requirements document had been
awaiting approval for 2 years as of July 2006. Program managers for 7 of 14
Army programs in the production phase of the acquisition process had on file
approved acquisition strategy documents that indicated a disciplined acquisition
strategy was in place for the acquisition of the weapon systems. Program
managers for 5 of the remaining 7 programs had acquisition strategies that were
not approved but did indicate a disciplined acquisition strategy. Program
managers for the remaining two systems could not provide the audit team with an
acquisition strategy and we therefore could not determine whether those programs
had a disciplined acquisition strategy. The program manager for the Mid Range
Munition, a preacquisition program, was in the process of developing a
disciplined acquisition strategy.

10. Condition: On the Boeing KC-767A tanker aircraft program, the program
manager did not plan to complete an information support plan (formerly referred
to as a command, control, communications, computers and intelligence support
plan) before the milestone decision to acquire the first 100 tanker aircraft. An
information support plan is needed to identify, plan, and manage command,
control, communication, computers, and intelligence supportability needs,
dependencies between systems, and interface and interoperability requirements.
DoD Instruction 5000.2 requires program managers to prepare an information
support plan before the decision reviews for entering into the system development
and demonstration and the production and deployment phases of the
acquisition process.

Question: Did Army milestone decision authorities require program managers to
prepare and obtain approval for information support plans before the systems
development and demonstration and production and deployment phases of the
acquisition process for the 21 programs selected for review?

Results: For the 6 programs that had entered the system development and
demonstration phase of the acquisition process, one program manager submitted
an approved information support plan, and four program managers submitted
draft information support plans at the program milestone decision review. The

                                    33
milestone decision authority did not require an information support plan for the
Joint Vaccine Acquisition Program because it did not have any interoperability
requirements. For the 14 programs that were in the production and deployment
phase, five program managers had draft information support plans and four
program managers did not prepare plans because their programs did not have any
interoperability requirements. Five program managers had their full-rate
production decisions before the requirement for an information support plan
was established. Because it is in the preacquisition phase of the acquisition life
cycle, the Mid Range Munition program has not yet developed an Information
Support Plan.

11. Condition: The operational requirements document developed by the
Air Force did not require that the first 100 Boeing KC-767A tanker aircraft
acquired meet warfighter requirements for interoperability. As a result, the
aircraft acquired would not have fully met the key performance parameter
for interoperability.

Question: Did the Army Deputy Chief of Staff for Operations require program
managers to meet a net-ready (formerly interoperability) key performance
parameter and include it in the capability development documents and capability
production documents?

Results: The Army Deputy Chief of Staff for Operations included a key
performance parameter for net-readiness in capabilities development documents
for the five of six Army acquisition programs that were in the system
development and demonstration phase. The other program, Joint Vaccine
Acquisition Program, did not need a net-ready key performance parameter
because the program did not have interoperability requirements. Also, the Army
requirements community included a key performance parameter for net-readiness
in requirements documents for 5 of the 14 acquisition programs in the production
and deployment phase. Of the remaining nine acquisition programs, a key
performance parameter for net-readiness was not applicable to four programs
because the systems did not have a mission that required the system to be
interoperable. The other five systems had interoperability requirements but the
Army Deputy Chief of Staff for operations had not updated the capability
production documents to identify net-readiness as a key performance parameter.

12. Condition: On both the Boeing KC-767A tanker aircraft program and the
C-130J program, the Air Force did not ensure that warfighter operational
requirements were adequately established in the contract specifications.

Question: Did Army program managers ensure that contracting officers included
the requirements identified in the operational requirements or capabilities
development documents in contract specification before awarding development
contracts for the six programs reviewed in the system development and
demonstration phase of the acquisition process?

Results: For the six Army acquisition programs that were in the system
development and demonstration phase, program managers had verified that
contracting officers included requirements identified in operational requirements
documents or capabilities development documents in system
contract specifications.



                                    34
13. Condition: The Air Force did not comply with statutory provisions for
determining the operational effectiveness, suitability, and survivability of the
Boeing KC-767A tanker aircraft before proceeding beyond low-rate initial
production and committing to the subsequent production of all 100 KC-767A
tanker aircraft. Section 2399, title 10, United States Code, “Operational Test and
Evaluation of Defense Acquisition Programs,” states that a major Defense
acquisition program may not proceed beyond low-rate initial production until
initial operational test and evaluation of the program is completed. Further,
section 2366, title 10, United States Code, states that a covered system, a system
under the oversight of the Director, Operational Test and Evaluation, may not
proceed beyond low-rate initial production until realistic survivability testing of
the system has been completed.

Question: Did Army milestone decision authorities ensure that initial operational
test and evaluation was completed before they approved the 14 Army acquisition
programs for full-rate production? Also, did the Army milestone decision
authorities ensure that survivability testing was planned and conducted for the
12 covered acquisition programs?

Results: The Army milestone decision authorities ensured that program
managers for 12 of 14 acquisition programs in production completed initial
operation test and evaluation before approving the programs for full-rate
production. Further, Army milestone decision authorities ensured that program
managers planned or completed survivability testing for 6 of the 12 covered
acquisition programs before approving the acquisition programs for full-rate
production. Program managers for the other six systems stated that they had not
planned to present the results of survivability testing to their milestone decision
authorities because they believed that their systems did not require that level of
testing. The Director, Operational Test and Evaluation had determined that the
six programs were covered acquisition programs.

14. Condition: Costly contract modifications to convert the commercial aircraft
to the KC-767A military configuration would occur because the KC-767A system
Program Office did not fully develop system engineering requirements.

Question: Did Army program managers prepare comprehensive systems
engineering plans for the six acquisition programs reviewed that were in the
system development and demonstration phase of the acquisition process?

Results: For the six Army acquisition programs that were in the system
development and demonstration phase of the acquisition process, five Army
program managers had prepared systems engineering documents required in DoD
5000 series of guidance to verify that system operational requirements would be
met in accordance with DoD policy. The remaining program, the Joint Vaccine
Acquisition Program, did not prepare a plan because the program did not have
any systems engineering requirements.

15. Condition: On the Boeing KC-767A tanker aircraft and the C-130J program,
the Assistant Secretary of the Air Force (Acquisition) did not hold program
managers accountable for completing statutory and regulatory requirements.
DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
Aircraft,” March 29, 2004, cited requirements in the areas of commercial items;
two statutory testing requirements; cost-plus-a-percentage-of-cost system of
contracting; leases; and acquisition documentation, such as the acquisition

                                     35
strategy and requirements documents. The C-130J report cited requirements in
the areas of commercial items; multiyear contract award; and testing.

Question: Are the Army milestone decision authorities holding program
managers accountable for completing statutory and regulatory document
requirements before milestone decisions and program reviews for the 21
programs selected for review?

Results: Army milestone decision authorities approved 10 of the 21 programs
reviewed for entry into the system development and demonstration or production
and deployment phase of the acquisition process before program managers
prepared, updated, or obtained all required documentation to support the decision
to proceed into the next phase of the acquisition process. Finding A discusses the
adequacy of program documentation supporting program milestone
decision reviews.




                                    36
Appendix E. Other Matters of Interest
        This appendix discusses two matters of interest for Army management’s attention.
        Because we identified a material control weakness associated with the Program
        Executive Office (PEO) Soldier in DoD Inspector General Report
        No. D-2006-004, “Audit of the Acquisition of the Objective Individual Combat
        Weapon,” October 7, 2005, we assessed the adequacy of PEO Soldier’s internal
        controls concerning acquisition category (ACAT) classification during this audit.
        Also, we noted that for some Army acquisition programs, the Army had more
        than two levels of management oversight between the program manager and the
        milestone decision authority. A discussion of these two matters follows.


Program Executive Office Soldier
        We reviewed 13 ACAT II and III programs managed by the Program Executive
        Officer Soldier to determine whether the appropriate ACAT classification had
        been established and whether the acquisition program had requirements
        documents validated and approved at the appropriate level. We also reviewed the
        statements of assurance provided to the Program Executive Officer from the
        product managers to determine whether material weaknesses were identified for
        their programs. We determined that one acquisition program, the Common
        Remotely Operated Weapon Station Program, may require reclassification from
        an ACAT III program to an ACAT II program because the Army Deputy Chief of
        Staff for Operations established an acquisition objective which will require
        estimated procurement funds totaling $2 billion to fulfill the requirement. 1 DoD
        Instruction 5000.2 states that ACAT II programs are major acquisition programs
        with an estimated total expense for procurement of more than $660 million in FY
        2000 constant dollars. ACAT III programs are acquisition programs with an
        estimated total in FY 2000 constant dollars less than ACAT II program dollar
        procurement threshold.

        We also found one deficiency with a statement of assurance. The Program
        Executive Officer Soldier approved the Advanced Combat Helmet Program
        system for entry into the system development and demonstration phase of the
        acquisition process without having an approved capability development document
        from the Deputy Chief of Staff for Operations. The product manager did not
        identify any material internal control weaknesses in the program’s statements of
        assurance.


Army Acquisition Oversight Process
        DoD Directive 5000.1 provides the basic framework for the DoD acquisition
        system and states that, to streamline organizations, management structures should

1
   During the review, a representative for the Program Executive Office Soldier stated that the Office
informed the Army Acquisition Executive that the program was expected to be classified as an ACAT II
but was awaiting approval of the acquisition objective by the Deputy Chief of Staff of the Army G-3.


                                                   37
have short, clearly defined lines of responsibility, authority, and accountability. It
further states that there should be no more than two levels of program review
between the program manager and the milestone decision authority.

During this review, we visited 10 PEOs and reviewed 21 programs. For the 21
programs reviewed, the number of levels of management oversight between the
program offices and the milestone decision authorities varied. Army Regulation
70-1 defines a project manager as an individual who is a colonel or GS-15, and a
product manager as an individual who is a lieutenant colonel or GS-14. The
regulation states that project or product managers serve as the materiel developers
of systems and are assigned full responsibility for the systems under development.

The number of levels of management oversight varied for the 21 programs
because in October 2001 the Army Chief of Staff issued a policy memorandum
that restructured the Army program executive officer and program manager
command structure. The intent of the memorandum was to ensure that program
managers would be responsible and accountable for life-cycle management of
their assigned programs. The memorandum required the Army to establish two
senior leadership positions, a military Program Executive Officer and a civilian
deputy Program Executive Officer. The memorandum also stated that the direct
reporting chain of command within the PEO could be structured as follows:

        •   product managers report to project managers;

        •   project managers report to a Program Executive Officer or the Army
            Acquisition Executive; and,

        •   PEOs report to the Army Acquisition Executive.

For the 21 programs selected for review, PEOs required program managers to
supervise the efforts of several project or product managers. The overarching
program manager was therefore responsible for overseeing multiple programs. In
turn, Program Executive Officers oversaw the overarching program managers.

For example, the PEO for Ground Combat Systems at the Army Tank-automotive
and Armaments Command oversaw five project managers who oversaw program
divisions for Robotic Systems, Modular Brigade Enhancements, Lightweight
155-Millimeter Howitzers, Stryker Brigade Combat Team, and Combat Systems.
Within each of these five divisions, multiple program offices with project and
product managers were assigned to oversee the materiel development of
individual programs. One of the programs under the Ground Combat Division,
the Bradley Fighting Vehicles, an ACAT I program, was further segmented into
three programs: one program to recapitalize and upgrade older vehicles, a second
program to modernize and upgrade vehicles, and a third program to continue
development of a new fire support vehicle. As a result, the project manager for
Bradley Fighting Vehicles received and reviewed information from the product
manager and reported the results to the program manager for Combat Systems.
The program manager then reported to the PEO for the Ground Combat Systems
within the Tank-automotive and Armaments Command. Because the Bradley
program is an ACAT I program, the Army Acquisition Executive was the
milestone decision authority. Accordingly, before milestone decisions can be
made, program management oversight occurred at three different levels between


                                     38
the product managers and the Army Acquisition Executive. The following figure
shows the management layers for the Ground Combat Systems within the
Tank-automotive and Armaments Command.




PEOs acknowledge that the review process can be lengthy. A representative from
the Tactical Vehicles program office stated that it took 7 years to obtain one of
several approvals needed for the acquisition of the High Mobility Multipurpose
Wheeled Vehicle. Further, a May 2004 memorandum issued by the PEO,
Tactical Missiles, stated that 4 months lead time was required to coordinate a
revised acquisition strategy for approval, and 7 months lead time was required to
coordinate cost analysis information before a program review with the milestone
decision authority.

Thus, the Army acquisition management oversight process for reviewing and
approving acquisition programs at milestone reviews exceeds, in some instances,
the number of levels of oversight specified in DOD Directive 5000.1. As a result,
the oversight process is cumbersome, and it delays acquisition
milestone decisions.




                                   39
Appendix F. Overview of the 21 Army Acquisition Programs
                                                                                           Last Program                                                              GWOT 1
                                                                                              Milestone        RDT&E        Procurement        Total Cost           Funding         DOT&E
                                  Program Name                                  Phase              Date     (in millions)   (in millions)     (in millions)      (in millions)      Oversight   Urgent Need            Milestone Decision Authority
ACAT IC Programs
Bradley Fighting Vehicle System Upgrade                                         P&D       April 30, 2001       $       0      $      797.5        $      797.5       $          0     Yes          No         Army Acquisition Executive
Excalibur—Projectile, 155-mm Extended Range (XM982)                             SDD       May 23, 2005             395.3           1,397.4             1,792.7                  0     Yes          Yes        Army Acquisition Executive
Family of Medium Tactical Vehicles                                              P&D       Aug. 29, 1995             11.3          12,915.3            12,926.6           30,289.3     Yes          Yes        Army Acquisition Executive
Javelin (Advanced Anti-Tank Weapon System—Medium)                               P&D       May 23, 1997                 0             314.8               314.8              133.0     Yes          No         Army Acquisition Executive
Land Warrior                                                                    SDD       Feb. 10, 2005            225.8          11,543.8            11,769.6                  0     Yes          Yes        Army Acquisition Executive
Longbow Hellfire                                                                P&D       Oct. 18, 1995                0               2.5                 2.5                  0     Yes          No         Army Acquisition Executive
Patriot Advanced Capability-3                                                   P&D       Jan. 11, 2005            253.6            3474.4             3,728.0                  0     Yes          Yes        Army Acquisition Executive
ACAT II Programs
2.75-Inch Rocket System                                                          P&D      Not Available 2             0         2,744.5             2,744.5               13.0        No           No         PEO Missiles and Space
Army Constructive Training Federation                                            SDD      Oct. 22, 2004           291.3               0               291.3                  0        No           No         PEO Army Acquisition Executive
Advanced Field Artillery Tactical Data System                                    P&D      Dec. 13, 1995            71.8           111.5               183.3               11.0        Yes          No         PEO Command, Control, and Communications (Tactical)
Close Combat Tactical Trainer                                                    P&D      Dec. 14, 1998            15.1           187.7               202.8                  0        No           No         PEO Simulation, Training, and Instrumentation
Extended Range Multi-Purpose Unmanned Aerial Vehicle                             SDD      April 20, 2005          241.0           619.8               860.8                  0        Yes          No         PEO Aviation
Forward Area Air Defense Command, Control, and Intelligence System               P&D      April 24, 1995          225.6           403.0               658.6              165.0        No           Yes        PEO Command, Control, and Communications (Tactical)
Joint Vaccine Acquisition Program                                               PFDOS             -               444.2           261.6               705.8                  0        No           No         PEO Chemical and Biological Defense
Cartridge, 120-mm, M829A3                                                        P&D      March 3, 2003               0          1305.5             1,305.5                  0        No           No         PEO Ammunition
Maneuver Control System                                                          P&D      June 29, 2005            74.2           238.9               313.1               30.0        Yes          No         PEO Command, Control, and Communications (Tactical)
Mid Range Munition 3                                                            PACQ              -                39.1               0                39.1                  0        Yes          No         PEO Ammunition
Paladin Field Artillery Ammunition Support Vehicle                               P&D      Mar. 31, 1993             6.4           215.7               222.1                  0        No           No         PEO Ground Combat Systems
Shadow Tactical Unmanned Aerial Vehicle                                          P&D        Oct. 1, 2002           69.8           363.1               432.9              312.7        Yes          No         Army Acquisition Executive
Surface-Launched Advanced Medium Range Air-to-Air Missile                        SDD      Sept. 16, 2003           65.3           113.7               179.0                  0        Yes          No         PEO Missiles and Space
Secure Mobile Anti-Jam Reliable Tactical Terminal                                P&D       Jan. 25, 1999            5.3           373.0              378.3                   0        No           No         PEO Command, Control, and Communications (Tactical)
 Total                                                                                                         $2,465.1       $37,383.7           $39,848.8          $30,954.0

DOT&E               Director, Operational Test and Evaluation Oversight List
GWOT                Global War on Terrorism
PACQ                Preacquisition Program

PEO                 Program Executive Officer

PFDOS               Production, Fielding, Development and Operational Support
P&D                 Production and Deployment
RDT&E               Research, Development, Technology, and Evaluation Funding
SDD                 System Development and Demonstration




1
    This column represents funding for Army Programs in FY 2004 and FY 2005.
2
    The Acquisition Decision Memorandum was not available.
3
    The Mid-Range Munition funding comes from the Army’s Science and Technology Budget.
                                                                                                                                             41
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer, Ammunition
      Project Manager, Maneuver Ammunition Systems-Direct Fire
         Product Manager, Large Caliber
         Product Manager, Medium Caliber
      Project Manager, Combat Ammunition Systems-Indirect Fire
         Product Manager, Excalibur
  Program Executive Officer, Aviation
      Project Manager, Unmanned Aerial Vehicle Systems
  Joint Program Executive Officer, Chemical and Biological Defense
      Joint Chemical and Biological Medical Systems
         Product Manager, Joint Vaccine Acquisition Program
  Program Executive Officer, Combat Support, and Combat Service Support
      Project Manager, Tactical Vehicles
         Product Manager, Medium Tactical Vehicles
  Program Executive Officer, Command, Control, and Communications (Tactical)
      Project Manager, Intelligence, and Effects
      Project Manager, Counter-Rocket, Artillery, Mortar
      Project Manager, Ground Combat Command and Control
         Product Manager, Maneuver Control System
      Project Manager, Warfighter Information Network-Tactical
         Product Manager, Extreme Satellite Systems
  Program Executive Officer, Ground Combat Systems
      Project Manager, Combat Systems
         Product Manager, Bradley Fighting Vehicle Systems
      Project Manager, Fire Support Platforms


                                          43
  Program Executive Officer, Missiles and Space
     Project Manager, Joint Attack Munition Systems
        Product Manager, Rockets
        Product Manger, Missiles
     Project Manager, Close Combat Weapon System
        Product Manager, Javelin
     Project Manager, Lower Tier
        Product Manager, Patriot Advanced Capabilty-3
     Project Manager, Common Missile Defense Special
        Product Manager, Surface-Launched Advanced Medium Range Air-to-Air
           Missile
  Program Executive Officer, Soldier
     Project Manager Soldier, Warrior
        Product Manager, Land Warrior
  Program Executive Officer, Simulation, Training, and Instrumentation
     Project Manager, Combined Arms Tactical Trainers
  Deputy Chief of Staff for Operations (G-3/5/7)
  Deputy Chief of Staff for Programs (G-8)
  Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform


                                          44
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        45
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
John E. Meling
Rodney D. Britt
Celia J. Harrigan
Tracey E. Dismukes
Roberta C. Dameron
Rebecca T. Crown-Schwartz
Desmond L. Wilson
Ryan M. Silvis
Toccara J. Jones
Jillisa H. Milner
